HHS/OIG, Audit -"Audit of Medicaid Payments for Under 21 Year Old Residents of Private Psychiatric Hospitals that are Institutions for Mental Diseases in Florida"(A-04-02-02014)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Payments for Under 21 Year Old Residents of Private Psychiatric Hospitals that are Institutions
for Mental Diseases in Florida," (A-04-02-02014)
February 28, 2003
Complete
Text of Report is available in PDF format (691 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Florida did not have adequate controls in place to preclude claiming federal financial
participation (FFP) for medical services provided to institutions for mental disease (IMD) residents under the age of 21/22.  We
identified 30,757 claims out of 153,323 claims applicable to these residents that were not eligible for federal reimbursement,
yet FFP was claimed.  The 30,757 claims represented $362,931 in FFP.  Moreover, our review was limited, and additional
overpayments likely exist.  We recommended that the state refund the $362,931 and identify and return improper
FFP applicable to the other IMDs not included in our review.  The state agency acknowledged FFP of $362,931 was reimbursed
in error.  The state agency will make an adjustment equal to this amount on the next quarters expenditure report.